No. 20-255
IN THE

Supreme Court of the United States
————
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.
B.L., A MINOR, BY AND THROUGH HER FATHER
LAWRENCE LEVY AND HER MOTHER BETTY LOU LEVY,
Respondents.
————
On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
————
BRIEF AMICUS CURIAE OF
COLLEGE ATHLETE ADVOCATES
IN SUPPORT OF RESPONDENTS
————
JUSTIN MARCEAU
Counsel of Record
UNIVERSITY OF DENVER,
STURM COLLEGE OF LAW
2255 E. Evans Avenue
Denver, CO 80210
(617) 256-9073
jmarceau@law.du.edu
Counsel for Amicus Curiae
March 31, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Can a public school, college or university discipline
a student for speech outside of school grounds or
events, merely because the speech is about the school
and might provoke other students to disagree?

(i)

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

TABLE OF CONTENTS .....................................

iii

TABLE OF AUTHORITIES ................................

v

INTEREST OF AMICUS CURIAE .....................

1

SUMMARY OF ARGUMENT .............................

2

ARGUMENT ........................................................

3

I. THE COURT WILL BE DETERMINING
THE RIGHTS OF COLLEGE STUDENTS
AS WELL AS K-12 STUDENTS.................

4

II. ATHLETES HAVE OFTEN USED
THEIR VOICES IN THE VANGUARD
OF POLITICAL AND SOCIAL MOVEMENTS......................................................

8

III. ATHLETES
NEED
ASSURANCE
THEY CAN ENGAGE IN SAFETYMOTIVATED
WHISTLEBLOWING
WITHOUT FEAR OF RETRIBUTION ....

12

IV. THE RULE SET BY THE COURT WILL
AFFECT NOT JUST SOCIAL MEDIA
SPEECH, BUT ALL OFF-CAMPUS
SPEECH, INCLUDING LAWSUITS
AND TESTIMONY ...................................

21

V. BEING DEPRIVED OF PARTICIPATION IN SPORTS OR OTHER EXTRACURRICULAR ACTIVITIES IS A LIFECHANGING LOSS, THE RISK OF
WHICH WILL INHIBIT SPEECH ..........

24

(iii)

iv
TABLE OF CONTENTS—Continued
Page
VI. CONDITIONING ELIGIBILITY FOR
SPORTS ON WAIVING FIRST AMENDMENT RIGHTS WOULD VIOLATE
THE “UNCONSTITUTIONAL CONDITIONS” DOCTRINE .................................

27

CONCLUSION ....................................................

31

v
TABLE OF AUTHORITIES
CASES

Page(s)

Agency for Int’l Dev. v. Alliance
for Open Society Int’l, Inc.,
570 U.S. 205 (2013) ................................... 28-29
Alabama Student Party v. Student
Government Ass’n,
867 F. 2d 1344 (11th Cir. 1989) ................

6

Bethel Area Sch. Dist. v. Fraser,
478 U.S. 675 (1986) ...................................

5

Dariano v. Morgan Hill Unified Sch. Dist.,
767 F. 3d 764 (9th Cir. 2014) ....................

23

Doe v. Alvey,
No. 1:20-CV-410. 2021 WL
1099593 (S.D. Ohio Mar. 23, 2021) ..........

5

Doninger v. Niehoff,
527 F. 3d 41 (2d Cir. 2008) .......................

21

Eisner v. Stamford Board of Educ.,
440 F. 2d 803 (2d Cir. 1971) .....................

23

Hartzell v. Connell,
679 P.2d 35 (Cal. 1994) (en banc) .............

27

Hazelwood Sch. Dist. v. Kuhlmeier,
484 U.S. 260 (1988) ...................................

4-5

Hunt v. Bd. of Regents of Univ. of N.M.,
792 Fed.Appx. 595 (10th Cir. 2019) .........

7

Koontz v. St. Johns River Water
Management Dist.,
570 U.S. 595 (2013) ...................................

28

Lee v. Macon County Bd. of Educ.,
283 F. Supp. 194 (M.D. Ala. 1968) ...........

27

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Liverman v. City of Petersburg, 844 F. 3d
400, 408 (4th Cir. 2016) ............................

30

Radwan v. Univ. of Conn.,
465 F. Supp. 3d 75 (D. Conn. 2020) .........

5

Reno v. ACLU,
521 U.S. 844 (1997) ...................................

21

Sherbert v. Verner,
374 U.S. 398 (1963) ...................................

25

State ex rel. Dresser v. Dist. Bd.
of Sch. Dist. No. 1,
116 N.W. 232 (Wis. 1908) .........................

18

Sullivan v. Houston Indep. Sch. Dist.,
475 F. 2d 1071 (5th Cir. 1973) ..................

23

Tinker v. Des Moines Indep.
Cmty. Sch. Dist.,
393 U.S. 503 (1969) .......................... 4, 21-23, 31
United States v. O’Brien,
391 U.S. 367 (1968) ...................................

31

OTHER AUTHORITIES
Aleza Lardieri, Study: College Students’
Confidence in 1st Amendment Security
Decreases, U.S. News & World Rep. (Mar.
12, 2018) ....................................................

7

Anemona Hartocollis, Students Punished
for ‘Vulgar’ Social Media Posts Are
Fighting Back, N.Y. Times (Feb. 5, 2021) ..

6

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Barrett Sallee, Iowa splits with strength
coach Chris Doyle after allegations of
racial disparity, CBS Sports (Jun. 15,
2020) ..........................................................

14

Brendan Prunty, Mike Rice fired at Rutgers
after abusive behavior on practice tapes
comes to light, The Star Ledger (Apr. 3,
2013) ..........................................................

14

Brent Schrotenboer, NCAA moves forward
with historic reforms for athletes on
name, image and likeness, as well as
transfers, USA Today (Oct. 14, 2020) .......

9

Brianna J. Schroeder, Power Imbalances in
College Athletics and an Exploited Standard: Is Title IX Dead?, 43 Val. U. L. Rev.
1483 (2009) ................................................

15

Dana Huninger Benbow, Toxic abuse alleged
inside Purdue-Fort Wayne women’s basketball: ‘It was brutal’, Indianapolis Star
(Jan. 20, 2021) ...........................................

13

Dana O’Neil, A game that should not be
forgotten, ESPN.com (Dec. 13, 2012) .......

8

Deborah L. Brake, Going Outside Title IX
to Keep Coach-Athlete Relationships in
Bounds, 22 Marq. Sports L. Rev. 395
(2012) .........................................................

15

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Eva Oberle et al., Screen time and extracurricular activities as risk and protective
factors for mental health in adolescence:
A population-level study, Preventive
Medicine, Dec. 2020 ..................................

27

Frank D. LoMonte, The Key Word Is
Student: Hazelwood Censorship Crashes
the Ivy-Covered Gates, 11 First Amend. L.
Rev. 305 (2013)..........................................

5

Frank D. LoMonte & Virginia Hamrick,
Running the Full-Court Press: How
College Athletic Departments Unlawfully
Restrict Athletes’ Rights to Speak to the
News Media, 99 Neb. L. Rev. 86 (2020) ...

24

Ilana Kowarski, How Colleges Weigh
Applicants’ Extracurricular Activities, U.S.
News & World Rep. (Oct. 25, 2018)..........

26

James Bruggers, ‘This Was Preventable’:
Football Heat Deaths and the Rising
Temperature, Inside Climate News (July
20, 2018) ....................................................

16

James Dator, A comprehensive timeline of
the Larry Nassar case, SBNation (Feb.
26, 2021) ....................................................

13

Kerry Sheridan, The College Football Game
That Put A Dent In Desegregation,
NPR.org (Nov. 30, 2019) ...........................

8-9

Lindsey Wisniewski, Sedona Prince inspired
to lead the change in empowering women
in sports, NBC Sports (Mar. 21, 2021) .....

20

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Lyrissa Barnett Lidsky & Linda Riedemann
Norbut, Considering the Context of Online
Threats, 106 Calif. L. Rev. 1885 (2018)....

12

Marisa Kwiatkowski & Tricia L. Nadolny,
Cheerleading has a list of people banned
from the sport. It was missing 74 convicted sex offenders, USA Today (Sept.
18, 2020) ....................................................

14

Meggen Lindsay, Tinker Goes to College:
Why High School Free-Speech Standards
Should Not Apply to Post-Secondary
Students, 38 Wm. Mitchell L. Rev. 1470
(2012) .........................................................

4

Nat’l Ctr. for Educ. Stats., The Condition of
Education (2012), https://nces.ed.gov/pro
grams/coe/analysis/2012-section3.asp. .....

26

Nicholas A. Palumbo, Protecting Access to
Extracurricular Activities: The Need to
Recognize a Fundamental Right to a Minimally Adequate Education, 2004 B.Y.U.
Educ. & L.J. 393 (2004) ............................

26

Philip Bump, How the Missouri football
team took down its university’s president,
Wash. Post (Nov. 9, 2015) .........................

10

Rhiannon Walker, High school football
players following Kaepernick’s lead, The
Undefeated (Sept. 15, 2016) .....................

10

x
TABLE OF AUTHORITIES—Continued
Page(s)
Rick Maese & Keith L. Alexander, Report
on Maryland football culture cites problems but stops short of ‘toxic’ label, The
Washington Post, Oct. 25, 2018 ...............

15

Scott Raab, The Wrestler, Esquire (Feb. 23,
2021) ..........................................................

13

Shaun R. Harper, White NCAA Coaches
Profit Off Black Players, Hartford Courant
(Mar. 14, 2018) ..........................................

11

Stephen Sawchuk, Schools Teach Civics.
Do They Model It?, Educ. Week (May 7,
2019) ..........................................................

7

T.F. Charlton, Why do athletes tolerate
abusive coaches?, Salon (Apr. 6, 2013) .....

15

Theresa Vargas, A high school football
team told adults they were spat on and
called the n-word. Nothing changed until
a player posted, ‘enough is enough!’,
Wash. Post (Mar. 20, 2021) ......................

17

1
BRIEF OF AMICI CURIAE AND
IDENTITY OF AMICI CURIAE1
The collective term “College Athlete Advocates”
refers to the following individuals and organizations
who are signatories to this brief. They share in
common a familiarity with, and concern for, the ability
of students participating in competitive sports to
make themselves heard – safely, without fear of
reprisal – on issues of public concern, including issues
affecting their own health and safety. The signers are:
The National College Players Association
(“NCPA”) is a 501(c)(3) nonprofit advocacy group
launched by UCLA football players in 2001 to serve as
an independent voice for college athletes across the
nation. Today, the NCPA has more than 20,000
members at more than 150 NCAA Division I campuses
nationwide. The NCPA’s mission is to protect future,
current, and former college athletes.
The College Athlete Advocacy Initiative
("CAAI") is a non-profit organization dedicated to the
representation of college athletes and college sports
reform initiatives. Based at the Urban Justice Center
in New York City, CAAI was founded in 2019 by Tim
Pursuant to Sup. Ct. R. 37, counsel for amici curiae states that
no party’s counsel authored this brief in whole or in part; no party
or party’s counsel made a monetary contribution intended to fund
the preparation or submission of this brief; no person other than
the amici curiae, its members or its counsel made a monetary
contribution intended to fund the preparation or submission of
this brief; and written consent of all parties to the filing of the
brief has been obtained.

1

2
Nevius, a lawyer and former investigator for the
National Collegiate Athletic Association, who has
extensive experience working with high school and
college athletes on disciplinary and eligibility
matters. As part of its mission, CAAI has worked with
several college athletes on sports-related matters,
including issues related to reporting abuse and
mistreatment by coaches.
Julie Sommer is an attorney in Seattle, with
over fifteen years of litigation experience. Julie earned
a bachelor’s degree from the University of Texas at
Austin where she was a member of an NCAA National
Championship swim team. She was an individual
Southwest Conference champion as a freshman, a
four-time NCAA All-American, and competed in the
1992 U.S. Olympic Trials.
Kendall Ware is a senior at the University of
Vermont, where she has been a member of the UWM
intercollegiate swim team throughout her college
career. Ware is among the plaintiffs in an ongoing
federal lawsuit against the NCAA pending in the U.S.
District Court for the Western District of Michigan,
challenging the athletic governance body’s failure to
protect athletes against sexual assault.
SUMMARY OF ARGUMENT
This case implicates the ability of students
playing competitive sports, at all educational levels, to
express themselves about the social and political
issues they care about – and to engage in safetymotivated whistleblowing about conditions within
their own athletic programs – without fear of

3
retaliation. The stakes for the safety of athletes could
scarcely be higher. The standard being urged by the
School District in this case would result in “open
season” on whistleblowers within high school and
college athletics, because the District and its
supporting amici would have the Court define
complaining about the athletic program as a
punishable act of “disruption” unprotected by the First
Amendment. Although this case involves a high school
athlete, when this Court has decided a First
Amendment case in the K-12 educational setting,
lower courts have applied the same level of control to
the speech of adult-aged college students. They will do
so here as well.
The District and several of its amici would have
the Court declare sports and other extracurricular
activities to be a “Constitution-free zone” where
schools have limitless authority to regulate student
expression, so long as they allege that the speech will
provoke differences of opinion. This standard leaves
no room for students to express even the most wellfounded concerns about their educational institutions.
It is especially tone-deaf to adopt a rule of “no
controversial speech” at this time in history, when
athletes’ voices about both external political causes
(such as race relations) and closer-to-home concerns
(such as the rights of college athletes to earn a living)
desperately need to be heard. It is also illegal.
Requiring people to waive their constitutional rights
in exchange for a government benefit, even an entirely
discretionary one, contravenes the “unconstitutional
conditions” doctrine.

4
This is, effectively, a college student speech
case. The Court should keep the welfare of college
students front-and-center in considering where to
draw the line of institutional punitive authority, and
should not draw any line in B.L.’s case that would not
be suitable for the speech of a 21-year-old college
student.
ARGUMENT
I.

THE COURT WILL BE DETERMINING
THE RIGHTS OF COLLEGE STUDENTS
AS WELL AS K-12 STUDENTS

Supreme Court decisions diminishing the First
Amendment right of K-12 students invariably end up
being applied to diminish the rights of college students
as well. If the Court accepts the invitation to equate
off-campus speech with on-campus speech governed by
Tinker v. Des Moines Independent Community School
District, 393 U.S. 503 (1969), that decision will
adversely affect the rights of college students, because
courts already widely apply Tinker at the college level.
See Meggen Lindsay, Tinker Goes to College: Why
High School Free-Speech Standards Should Not Apply
to Post-Secondary Students, 38 WM. MITCHELL L. REV.
1470, 1485 (2012) (stating that five circuits have relied
on Tinker in adjudicating First Amendment cases
involving college students).
In Hazelwood School District v. Kuhlmeier, 484
U.S. 260, 273 n.7 (1988), the Court reserved the
question of what level of First Amendment protection
should apply to speech in the curricular setting when
the speaker is a college-aged adult rather than, as in

5
that case, a minor attending high school. Two things
have happened since. First, the Court has never in the
ensuing 33 years found occasion to clarify that
unanswered question, leaving two generations of
college students uncertain in their level of First
Amendment protection. And second, in the absence of
guidance from this Court, the lower courts have nearunanimously answered the unanswered question
adversely to student rights. Hazelwood is now widely
accepted as the default level of control over student
“curricular” speech at every educational level, even
graduate and professional school. See Frank D.
LoMonte, The Key Word Is Student: Hazelwood
Censorship Crashes the Ivy-Covered Gates, 11 FIRST
AMEND. L. REV. 305, 305 (2013) (stating that four
federal circuits have explicitly applied Hazelwood to
college-level speakers and only one circuit has
declined to do so). Indeed, just recently, a federal court
in Connecticut – in a case also involving discipline of
an athlete – dismissed a college speaker’s First
Amendment case in reliance on this Court’s decision
in a high-school speech case, Bethel Area School
District v. Fraser, 478 U.S. 675 (1986). See Radwan v.
Univ. of Conn., 465 F. Supp. 3d 75, 111-12 (D. Conn.
2020) (citing Fraser for the proposition that a college
could reasonably have believed its punitive authority
extended to a college athlete’s fleeting use of a middlefinger gesture). See also Doe v. Alvey, No. 1:20-CV-410.
2021 WL 1099593 (S.D. Ohio Mar. 23, 2021) (applying
high school First Amendment standards to find that a
college athlete’s Title IX complaint of a hostile
environment created by her coach was not
constitutionally protected speech, because it involved
questioning the coach’s judgment). In other words,
even though college is obviously different from K-12

6
school in what should be legally significant ways,
courts generally have overlooked those obvious
differences and simply imported this Court’s K-12
school-speech jurisprudence onto the college campus.
Make no mistake: This is what will happen if
the Court diminishes student First Amendment rights
in this case. Colleges, universities, and their lawyers
did not regard the Court’s cautionary reservation in
Hazelwood as having any consequence, and they will
not do so here, either. Less than one year after this
Court decided Hazelwood, lawyers for the University
of Alabama were in court arguing – successfully – that
the Hazelwood standard applies equally at the
postsecondary level, unleashing decades of censorship
and retaliation. Alabama Student Party v. Student
Government Ass’n, 867 F. 2d 1344 (11th Cir. 1989).
Higher education institutions have been assertively
policing their students’ off-campus speech on social
media in dubiously legal ways, and an outcome in the
District’s favor here will be widely perceived as the
green light to continue doing so. See, e.g., Anemona
Hartocollis, Students Punished for ‘Vulgar’ Social
Media Posts Are Fighting Back, N.Y. TIMES (Feb. 5,
2021),
https://www.nytimes.com/2021/02/05/us/collegessocial-media-discipline.html (describing the case of a
27-year-old pharmacy graduate student at the
University of Tennessee expelled over “raunchy” social
media posts in which she shared sex-themed song
lyrics). Unmistakably, the Court is making a decision
in this case that will establish – potentially, for
decades to come – the level of First Amendment
freedom that adult-aged college students can expect.

7
The declining support for First Amendment
principles among America’s college students has been
widely documented and decried.2 It is no secret why
students fail to see the First Amendment as a
meaningful check on government authority: Because,
so far as they can tell, it is not.3 In one especially
egregious case, a state university was permitted to
discipline a 26-year-old medical student because he
used uncivil language in an off-campus Facebook post
– which never mentioned the college or anyone
attending it – denouncing the abortion-rights
movement, an act of core political speech. Hunt v. Bd.
of Regents of Univ. of N.M., 792 Fed.Appx. 595 (10th
Cir. 2019) (unpublished). If this Court further erodes
First Amendment freedoms, the message to students
– who learn from observation and experience, not just
See Aleza Lardieri, Study: College Students' Confidence in 1st
Amendment Security Decreases, U.S. NEWS & WORLD REP. (Mar.
12, 2018), https://www.usnews.com/news/politics/articles/201803-12/study-college-students-confidence-in-1st-amendmentsecurity-decreases (summarizing findings of Knight/Gallup
survey of college students nationwide, which found eroding
confidence in the security of freedom of speech and press, growing
acceptance of restrictive campus “speech codes,” and widespread
agreement that the campus climate causes some students to selfcensor their political opinions).
2

See Stephen Sawchuk, Schools Teach Civics. Do They Model It?,
WEEK
(May
7,
2019),
EDUC.
https://www.usnews.com/news/politics/articles/2018-0312/study-college-students-confidence-in-1st-amendmentsecurity-decreases (“All but absent from the growing civics
education conversation is the recognition that everyday
interactions in schools also inform students’ civic development,
and that often those interactions tell a totally different story
about individuals’ rights from the government textbooks used in
class.”).
3

8
from textbooks – will be unmistakable. Students can
scarcely be expected to honor and cherish a First
Amendment that their lived experience teaches them
to be a valueless abstraction.
II.

ATHLETES HAVE OFTEN USED THEIR
VOICES IN THE VANGUARD OF
POLITICAL AND SOCIAL MOVEMENTS

It is an especially tone-deaf moment in
America’s history for educational institutions to be
seeking essentially limitless authority to silence
speech by athletes. Athletes have long been in the
forefront of reform movements, including the
movements for racial and gender equality, and they
are again in the forefront today. Clouding their ability
to speak in their off-campus lives will silence these
invaluable voices.
Sports have long been a vehicle for social
change, for obvious reasons. Sports command public
attention, athletes and coaches are admired role
models, and sports bring students of different races
and socioeconomic backgrounds together. When a
Black college basketball player extended a handshake
to a white opposing player during a 1963 NCAA
tournament game between Loyola and Mississippi
State, the gesture reverberated across the nation and
the game (which became known as “The Game of
Change”) was credited with helping speed the demise
of segregation in higher education.4
Dana O’Neil, A game that should not be forgotten, ESPN.COM
(Dec.
13,
2012),
https://www.espn.com/mens-collegebasketball/story/_/id/8741183/game-change-mississippi-stateloyola-cannot-forgotten-college-basketball. See also Kerry

4

9
Today, college athletes are taking the baton
from Loyola’s Jerry Harkness and continuing to
advocate for the rights of the underrepresented,
within college sports and beyond. College players have
taken leadership in a nationwide movement – known
as “Name, Image and Likeness” or NIL – that could
transform the century-old notion of college sports as a
“vow of poverty” in which players are constrained from
earning outside income while their institutions reap
billions from their labor. All of this activity is, to put it
mildly, “disruptive” to college sports. See Brent
Schrotenboer, NCAA moves forward with historic
reforms for athletes on name, image and likeness, as
well as transfers, USA TODAY (Oct. 14, 2020),
https://www.usatoday.com/story/sports/college/2020/1
0/14/ncaa-moves-forward-historic-athlete-reformsname-image-likeness-transfer/3658056001/
(observing that the NIL movement “promises to
disrupt the old-fashioned notion of amateurism in
college sports”). When Northwestern University
football players petitioned the National Labor
Relations Board for the right to unionize, the
university responded that the move “would create
serious disruptions and undermine equality and
fairness among the schools participating in
intercollegiate athletics.”5 This is why it is so perilous
Sheridan, The College Football Game That Put A Dent In
(Nov.
30,
2019),
Desegregation,
NPR.ORG
https://www.npr.org/2019/11/30/783889446/the-college-footballgame-that-put-a-dent-in-desegregation (describing how historymaking 1969 college football game between University of Tampa
and historically Black Florida A&M University “ended an era of
segregation in sports by erasing the myth that white players were
superior to black athletes”).
5 In re Northwestern Univ. & College Athletes Players Ass’n,
N.L.R.B. Case No. 13-RC-121359, Northwestern University’s

10
to set the bar – as the School District and Solicitor
General urge – at the point of “disruption” of an
athletic program. Sometimes, institutions need
disrupting.
Athletes’ activism is not limited to issues of selfinterest. At the University of Missouri, when college
football players organized in opposition to the
university’s
failings
in
responding
to
an
uncomfortable climate for Black students, the power
of their collective gesture was widely credited with
accelerating the ouster and replacement of the
university’s ineffective chancellor. See Philip Bump,
How the Missouri football team took down its
university’s president, WASH. POST (Nov. 9, 2015),
https://www.washingtonpost.com/news/thefix/wp/2015/11/09/missouri-football-players-and-theuntapped-political-power-of-the-college-studentathlete/. Forcing the removal of the institution’s top
executive is perhaps the textbook definition of
“disruption.”
Starting with the NFL’s Colin Kaepernick, but
trickling down to colleges and high schools, athletes
have used their role-model status and followings to
express their outrage over police brutality and of the
underlying systemic inequities that produce violent
police confrontations in Black communities. See
Rhiannon Walker, High school football players
following Kaepernick’s lead, THE UNDEFEATED (Sept.
15, 2016), https://theundefeated.com/features/highschool-football-players-following-kaepernicks-lead/.
Reply Brief to the Board on Review of Regional Director’s
Decision and Direction of Election (July 31, 2014) at 18.

11
Undoubtedly, the sentiment of the “Black Lives
Matter” movement is not shared by everyone in the
locker room, and if discord in the locker room is all it
takes for an athletic department to impose
punishment, then much political advocacy will become
grounds for disciplinary action. The trigger point for
punishment urged by the School District and the
Solicitor General – that speech becomes punishable if
it “targets” a school audience – would be fully satisfied
by an athlete’s Instagram post wearing a Black Lives
Matter or Blue Lives Matter T-shirt in which the
athlete “tagged” the athletic program for purposes of
stimulating debate on campus (for example, “Join me
#Bulldogs”).
It cannot be overlooked that college sports
programs are overwhelmingly run by white
administrators, and disproportionately populated by
students of color. See Shaun R. Harper, White NCAA
Coaches Profit Off Black Players, HARTFORD COURANT
(Mar. 14, 2018), https://www.courant.com/opinion/hcop-harper-white-coaches-profit-off-black-players20180313-story.html (citing research on “power five”
athletic conferences, which shows 56 percent of college
basketball players are Black while 79 percent of head
coaches and 71 percent of athletic directors are white
males). In other words, a ruling against B.L. and in
favor of the School District will equip white college
administrators with virtually unreviewable authority
to silence the voices of Black and brown speakers.
This racial (and generational) divide is
significant for another reason: Social media is
uniquely vulnerable to cultural “mistranslation,”
because posts are so easily taken out of context. When

12
a student delivers a presentation in the classroom, the
context is self-evident. But a student who is enjoying
a concert and posts a tweet containing a snippet of rap
lyrics might be misperceived as advocating violence or
drug use.6 Simply put, 19-year-old Black students and
50-year-old white administrators do not always share
a cultural vocabulary. If a misinterpreted social-media
post becomes grounds for unreviewable punitive
action impervious to First Amendment challenge, it is
no mystery which athletes will suffer most.
III.

ATHLETES NEED ASSURANCE THEY
CAN ENGAGE IN SAFETY-MOTIVATED
WHISTLEBLOWING WITHOUT FEAR OF
RETRIBUTION

All students should go to school with the
confidence that they can speak out about wrongdoing
within their institutions without fear of retaliation,
but the right to engage in whistleblowing speech is
especially essential for the safety of those playing
competitive sports. It has become painfully apparent
in recent years that sports are rife with abuse. Young
athletes are uniquely vulnerable to exploitation by
their coaches exactly because of the code of enforced
silence that the Court is being asked to validate in this
case. In their zeal to make sure that no one can get
away with saying “fuck cheer,” Petitioners would leave
students equally vulnerable to punishment for saying:
See Lyrissa Barnett Lidsky & Linda Riedemann Norbut,
Considering the Context of Online Threats, 106 CALIF. L. REV.
1885, 1892 (2018) (describing ordeal of 18-year-old Texas teen
who was held in jail for four months and charged with felony
terroristic threats, because he used violent imagery in a Facebook
chat about a video game he was playing).

6

13
“Fuck the abusive cheerleading coach.” No one has a
legally enforceable duty to complain politely about the
government. To enforce a “mandatory politeness rule,”
under threat of punishment, will guarantee that abuse
festers undetected.
In recent years, scandals involving the abuse of
athletes have become public knowledge at Ohio State
University, where a wrestling team physician
molested young men for decades, and at Michigan State
University, where generations of young gymnasts
were criminally sexually abused by team physician
Larry Nassar, while university authorities looked the
other way.7 Abusive coaching tactics have surfaced at
the University of Iowa (racial slurs by a member of the
football coaching staff), at Rutgers University (verbal
and physical abuse by the head basketball coach), at
Purdue University-Fort Wayne (women’s basketball
coach accused of “toxic abuse” that drove players to
panic attacks and self-harm), and at many other
institutions, as former team members – no longer
vulnerable to retaliation – come forward and speak up
See Scott Raab, The Wrestler, ESQUIRE (Feb. 23, 2021),
https://www.esquire.com/sports/a35120040/richard-strauss-ohiostate-wrestling-sexualabuse/#:~:text=Schyck%20graduated%20with%20the%204,sport
s%20between%201978%20and%201998.; James Dator, A
comprehensive timeline of the Larry Nassar case, SBNATION (Feb.
26, 2021), https://www.sbnation.com/2018/1/19/16900674/larrynassar-abuse-timeline-usa-gymnastics-michigan-state.;
Dana
Huninger Benbow, Toxic abuse alleged inside Purdue-Fort Wayne
women's basketball: ‘It was brutal’, INDIANAPOLIS STAR (Jan. 20,
2021),
https://www.indystar.com/story/sports/college/purdue/2021/01/2
0/purdue-fort-wayne-womens-basketball-program-accused-toxicabuse/3592918001/.
7

14
about the mistreatment they endured.8 Abuse is an
especially acute problem for teen girls like B.L., who
may be vulnerable to exploitation by adult authority
figures; the world of competitive cheerleading has
been rocked by scandal in recent months as it comes
to light that dozens of adults continue working in
cheer programs despite ostensibly being banned
because of past sexual misconduct with minors.9
Common to these cases, and to dozens more like them
across the country, is that misconduct often takes
years or even decades to surface, because the victims
are too intimidated to complain, fearful of losing a
coveted shot at a free college education and a lucrative
professional sports career. Now, imagine that colleges
are equipped with the judicially sanctioned authority
to retaliate against anyone who speaks in the context
of sports in a “disruptive” way. This is a recipe for
making the already-abusive conditions for athletes

See Barrett Sallee, Iowa splits with strength coach Chris Doyle
after allegations of racial disparity, CBS SPORTS (Jun. 15, 2020),
https://www.cbssports.com/college-football/news/iowa-splitswith-strength-coach-chris-doyle-after-allegations-of-racialdisparity/; Brendan Prunty, Mike Rice fired at Rutgers after
abusive behavior on practice tapes comes to light, THE STAR
LEDGER
(Apr.
3,
2013),
https://www.nj.com/rutgersbasketball/2013/04/mike_rice_fired_a
t_rutgers_aft.html.
8

Marisa Kwiatkowski & Tricia L. Nadolny, Cheerleading has a
list of people banned from the sport. It was missing 74 convicted
TODAY
(Sept.
18,
2020),
sex
offenders,
USA
https://www.usatoday.com/indepth/news/investigations/2020/09/18/cheerleading-cheerinvestigation-sexual-misconduct-sex-offender-bannedlist/3377622001/.

9

15
exponentially worse, cutting off the only viable source
of rescue.
To borrow the Court’s iconic phrase from
NAACP v. Button, 371 U.S. 415, 433 (1963),
whistleblowing needs “breathing space to survive.”
The Court should not lose sight of the fact that it is
dealing with young and vulnerable speakers in a
position of extreme power differential.10 The culture
of enforced silence within sports is well-documented,
as Amici can attest from years of both playing college
sports and working on behalf of those who play today.
See, e.g., Rick Maese & Keith L. Alexander, Report on
Maryland football culture cites problems but stops
short of ‘toxic’ label, THE WASHINGTON POST, Oct. 25,
2018 (reporting on external investigation into the
See Deborah L. Brake, Going Outside Title IX to Keep CoachAthlete Relationships in Bounds, 22 MARQ. SPORTS L. REV. 395,
396 n.4 (2012) (“The dominant win-at-all cost model of
intercollegiate sport is rife with harms to athletes, male and
female. The asymmetrical coach-athlete relationship empowers
coaches to abuse athletes in sexual and nonsexual ways.”);
Brianna J. Schroeder, Power Imbalances in College Athletics and
an Exploited Standard: Is Title IX Dead?, 43 VAL. U. L. REV. 1483,
1484 (2009) (observing that “college athletic teams are marked
by power imbalances, with players at the bottom of the power
structure. …This power structure makes the athletic team an
environment ripe for sexually harassing behavior that goes
unreported.”); T.F. Charlton, Why do athletes tolerate abusive
(Apr.
6,
2013),
coaches?,
SALON
https://www.salon.com/2013/04/05/why_do_athletes_tolerate_ab
usive_coaches/ (“Players recognize the profound imbalance of
power that makes challenging abuse dangerous in a hierarchical
and authoritarian coaching culture. The person they would be
accusing holds power over their athletic scholarships and playing
time, and has the backing of even more powerful school
officials.”).
10

16
heat-stroke death of University of Maryland football
player Jordan McNair, which concluded that athletic
department officials cultivated “a culture where
problems festered because too many players feared
speaking out,” even when coaches subjected them to
abusive tactics).
The Solicitor General proposes that student
speech should lose the protection of the First
Amendment and become punishable when it
“intentionally targets specific school functions or
programs regarding matters essential to or inherent
in the functions or programs themselves (such that the
speech has the potential to substantially undermine
the function or program)” or “when the student’s offcampus speech targets an extracurricular athletic
program in which the student participates,” and then
offers as an example of punishable speech a socialmedia post questioning the coach’s play-calling. Brf.
for United States at 24, 25. This is roadmap for
retaliation. If the triggering event for discipline is that
the disciplinarian perceives student speech as
contrary to “maintaining team cohesion and respect
for the coach’s authority” (Brf. for United States at 8),
then even the most well-founded criticism – for
instance, that the coach is forcing players to practice
in unsafe conditions11 – is grounds for punishment, no
matter where and how it is delivered.
See James Bruggers, ‘This Was Preventable’: Football Heat
Deaths and the Rising Temperature, INSIDE CLIMATE NEWS (July
20, 2018), https://insideclimatenews.org/news/20072018/highschool-football-practice-heat-stroke-exhaustion-deaths-staterankings-health-safety/ (reporting that an average of three
football players per year die of heat stroke).
11

17
Just this month, The Washington Post featured
the story of a Virginia high school football player who
used social media to call attention to racial slurs that
he and his Black teammates faced from opposing
players, fans and coaches during a game.12 The player,
Lukai Hatcher, decried what he argued were biased
decisions by referees, and challenged the fairness of
punishment imposed on Black players who fought
back after an opponent spat on one of them. Because
it, quote, “targets an extracurricular athletic program
in which the student participates,” Hatcher’s act of
whistleblowing about racism – which, in his case, led
to a positive dialogue at the school – is a punishable
disciplinary infraction under the Solicitor General’s
standard.
There is, admittedly, no perfect solution to this
case – or any line-drawing case where speech is
concerned. There is always a risk that the rule
established by the Court will end up “over-punishing”
speech or “under-punishing” it. In locating the
boundary between what is and is not sanctionable,
either some high-value speech may end up being
punished, or some low-value speech may go
unpunished. The Petitioner and its amici supporters
are asking the Court to choose “over-punishment” – to
Theresa Vargas, A high school football team told adults they
were spat on and called the n-word. Nothing changed until a
player posted, ‘enough is enough!’, WASH. POST (Mar. 20, 2021),
https://www.washingtonpost.com/local/a-high-school-footballteam-told-adults-they-were-spit-on-and-called-the-n-wordnothing-changed-until-a-player-posted-enough-isenough/2021/03/20/fa0c7e78-8918-11eb-bfdf4d36dab83a6d_story.html
12

18
adopt a rule that ensures that some student
whistleblowers will end up suffering disciplinary
action as “disruptors,” without recourse to vindicate
themselves, and that as a result of that overpunishment, others will be chilled from engaging in
high-value speech. That, the Court is being told, is the
price that must be paid to ensure that coaches and
school administrators do not have to put up with being
insulted. This is wrong as a matter of law, and wrong
as a matter of basic human decency.
The “worst-case scenario” that the Solicitor
General can conjure is that a player may take to social
media to critique a coach’s strategy decision.
Undoubtedly, that may hurt the coach’s feelings. But
the hurt feelings of government employees criticized
by their constituents do not count for very much in a
First Amendment analysis. If something must be
risked – that coaches must develop a thicker skin for
insults, or that whistleblowers must be silenced by
retaliation – the choice is clear. Indeed, the Solicitor
General’s brief on behalf of the District “says the quiet
part out loud.” Schools are asking the Court for
authority to police off-campus speech because they do
not like students second-guessing their decisions, and
if given the authority they seek, they will use it to
silence dissent. This is not speculation. The agenda is
in plain sight.13
In its brief, the District approvingly cites the case of State ex
rel. Dresser v. Dist. Bd. of Sch. Dist. No. 1, 116 N.W. 232 (Wis.
1908). In Dresser, the Wisconsin Supreme Court permitted a
school to retaliate against students who submitted a humorous
poem to their community’s weekly newspaper, poking fun at what
they considered to be ridiculous disciplinary rules. Once again,
the District has “said the quiet part out loud.” If successful here,
13

19
Any educator will readily attest to the single
greatest source of discord among high school students:
Dating. Betty may break up with Archie to date
Reggie, or Archie and Reggie may become rivals for
the affections of Veronica. This off-campus behavior
not-infrequently becomes a source of discord within
the locker room. Would schools purport to have
regulatory authority over off-campus dating behavior,
in the name of preserving team harmony? Plainly,
they would not. Similarly, tensions may arise between
students because of conflicting political or religious
beliefs, or because a student was given an extravagant
car, outfit, or video game that causes envy. Would
schools purport to have regulatory authority over offcampus political or religious activities, or over offcampus purchasing decisions, in the name of
preserving team unity? Plainly, they would not. Of all
of the off-campus behaviors that might spill over and
provoke discord in the locker room, schools are
interested in regulating only one: Criticism of
government employees. And that is the one that the
Constitution most fiercely protects.
If the line where free speech ends is to be drawn
at “comments that teammates perceive as disloyal to
the coach,” that encompasses an enormous amount of
whistleblowing speech. A student who testifies before
an inquest into irregularities in the athletic program
will assuredly be a divisive figure in the locker room,

the District has telegraphed that it will use its newfound
authority just as the school did in Dresser: To punish students
who use off-campus media to express dissent from school policies.

20
unpopular with players loyal to the coaching staff.14
But the protection of First Amendment rights does not
turn on the outcome of a “popularity contest.” Indeed,
it is unpopular speech that most desperately needs the
Constitution’s clear protection.
Just within the past month, college basketball
players used social media to call public attention to
inferior weight-training facilities made available to
women during the NCAA basketball tournament as
compared with the commodious facilities for male
players.15 Videos shared by Oregon player Sedona
Price on the TikTok and Twitter platforms caused a
worldwide outcry and impelled the NCAA to rectify
the inequity. Price made many media appearances in
the ensuing days, including on NBC Nightly News.
Now, imagine that the Oregon athletic department is
The Solicitor General’s brief offers the fanciful example of a
cheerleader using social media to announce that she plans to drop
a fellow cheerleader on the ground rather than catch her while
performing a routine. Purposefully injuring someone is assault,
and like any crime, announcing plans to commit it is punishable
even in the non-student world, just as police may intercept a
would-be bank robber who tweets his plans to commit a stickup.
This emphasizes an important reality: Schools already have
ample constitutional authority to deal with actual dangers to
safety. Suppressing student complaints cannot be offered up as
the “pro-safety” position. There is absolutely no evidence that
student complaints have ever led any student to commit harm,
up against the substantial evidence that students have used their
voices to sound the alarm about dangerous conditions and people.
14

Lindsey Wisniewski, Sedona Prince inspired to lead the change
in empowering women in sports, NBC SPORTS (Mar. 21, 2021),
https://www.nbcsports.com/northwest/ducks/sedona-princeinspired-lead-change-empowering-women-sports.
15

21
armed with authority to punish any off-campus
expression “disruptive” to the athletic program. Under
the standard offered by the Petitioner and the Solicitor
General, Prince may be thrown off the team and lose
her scholarship, without recourse; her newfound
media celebrity could make other players envious, and
she and her coach were forced to take time away from
game preparations to field interviews (i.e.,
“disruption”).16 Whatever standard the Court crafts
must not merely protect Sedona Prince’s activism; it
must unmistakably protect her, because an athlete
playing for the national championship will not speak
out and risk being disciplined unless she is certain she
can do so without retaliation.
IV.
THE RULE SET BY THE COURT
WILL AFFECT NOT JUST SOCIAL MEDIA
SPEECH,
BUT
ALL
OFF-CAMPUS
SPEECH, INCLUDING LAWSUITS AND
TESTIMONY
The Court is being asked to diminish students’
First Amendment rights because of the perceived
power of social media to reach a large audience, but it
bears emphasizing: There is only one First
Amendment. As this Court held in Reno v. ACLU, 521
U.S. 844 (1997), online speech is governed by the same
First Amendment standards as all other expressive
mediums. A rule giving educational institutions 24/7
control over student speech that is about their schools,
See Doninger v. Niehoff, 527 F. 3d 41 (2d Cir. 2008) (concluding
that a student activist’s off-campus speech qualifies as
“disruptive” under Tinker if it uses coarse language and could
cause a large number of people to call and email school
administrators with complaints).
16

22
or that has the potential to cause a reaction at school,
will encompass all off-campus expression: Giving an
interview to the news media, speaking at the open-mic
period to the school board or college trustees,
circulating a petition seeking the firing of an abusive
school employee, sending a complaint letter to the
NCAA – or even giving testimony in a lawsuit. All of
this is off-campus expression, all of it has the potential
to reach and affect the school – and all of it would
become subject to punishment, if the School District
prevails. To regard all of this speech as, functionally,
on-campus speech merely because it is about the
school would be a breathtaking expansion of
government authority. Testifying in opposition to a
school policy should not be an act of martyrdom.
The Tinker standard that the School District
and its amici supporters seek to extend to all student
speech was coined specifically for the “captive
audience” setting of a K-12 school, where students are
compelled by law to attend, unable to leave to avoid
unwelcome speech. It is one thing to say that schools
may control how students speak to an exclusively inschool audience during the instructional day, but quite
another to say that schools and colleges may equally
dictate how students talk with the entire outside
world, so that all speech now must be held to a
standard of “suitable for the classroom.”
The line that this Court drew in Tinker – that
speech loses First Amendment protection if it “would
materially and substantially disrupt the work and
discipline of the school,” Tinker 393 U.S. at 513 – is
insufficiently protective of off-campus expression for
several reasons. First, Tinker is understood to give

23
effect to the “heckler’s veto,” enabling administrators
to punish a student solely because of how other
students may overreact to the speech – even
unreasonably, and even unforeseeably to the speaker.
Second, Tinker does not require any showing of a
wrongful intent to cause a disruption; a student who
innocently wears a crimson shirt to school unaware
that the color is associated with a street gang can still
be disciplined, because Tinker contemplates no mens
rea. See Dariano v. Morgan Hill Unified School
District, 767 F. 3d 764 (9th Cir. 2014) (holding a school
can forbid wearing apparel featuring American flags
to school, if the symbol is expected to cause disruption
by inflaming others). And third, Tinker is understood
to permit prior restraint of student speech, so that
administrators may pre-review a publication to check
for potentially disruptive content. See Sullivan v.
Houston Indep. School District, 475 F. 2d 1071, 1076
(5th Cir. 1973); Eisner v. Stamford Board of
Education, 440 F. 2d 803, 809 (2d Cir. 1971). Now,
imagine applying that level of authority to a student
testifying before a school board or a college board of
trustees: A speech that a student delivers with benign
intent can be grounds for suspension or expulsion from
school if people at school might irrationally overreact
to it – and administrators can insist on pre-approving
the speech, under pain of discipline.
It is not idle speculation that, armed with
Tinker authority, schools and colleges will use it to
deter or punish whistleblowing speech – because they
do already. The handbooks of several prominent
college athletic programs contain explicit “antiwhistleblowing” rules threatening athletes with
discipline if they say anything to the press or public

24
that is perceived as disloyal. See Frank D. LoMonte &
Virginia Hamrick, Running the Full-Court Press: How
College Athletic Departments Unlawfully Restrict
Athletes’ Rights to Speak to the News Media, 99 NEB.
L. REV. 86, 100 (2020) (quoting handbooks gathered
from public university athletic departments that
include threats such as: “If you do not have anything
good to say, do not say anything at all. DO NOT
COMPLAIN ABOUT THE COACHES, TEAMMATES
OR THE UNIVERSITY.”). Because the atmosphere
for whistleblowing within schools and colleges is
already so oppressive – especially for athletes – a
decision by this Court conferring disciplinary
discretion over every word spoken or written about the
school will inevitably worsen safety conditions for this
vulnerable population.
V.
BEING
DEPRIVED
OF
PARTICIPATION IN SPORTS OR OTHER
EXTRACURRICULAR ACTIVITIES IS A
LIFE-CHANGING LOSS, THE RISK OF
WHICH WILL INHIBIT SPEECH
The School District would have the Court
declare that participation in sports or other
extracurricular activities may be freely taken away
without meaningful constitutional oversight. This is
an attempted revival of the long-discredited
“rights/privileges doctrine” that the Court should
resoundingly reject. The Court has long recognized
that, even if a person has no entitlement to receive a
benefit – such as a government job – that benefit still
cannot be withdrawn for a retaliatory or speechpunitive reason, because a reasonable speaker will be
deterred from speaking regardless of whether the

25
deprivation is considered the loss of an “entitlement”
or of a “privilege.”17 See Sherbert v. Verner, 374 U.S.
398, 404 (1963) (“It is too late in the day to doubt that
the liberties of religion and expression may be
infringed by the denial of or placing of conditions upon
a benefit or privilege.”).
More to the point, there is nothing insignificant
about the loss of participation in extracurricular
activities. When you are a college athlete, the loss of
The Solicitor General’s brief conjures up the “horrible” that, if
B.L. were to prevail in this case, courts may be asked to secondguess a coach’s decision to bench an insubordinate player. In the
first place, the First Amendment has been on the books for quite
a long time and public schools have offered sports for quite a long
time, and the Solicitor General has not produced a single example
of a student ever suing a school over a benching. But, more to the
point, that is not what happened in B.L.’s case. She was not
“benched.” She was given a disciplinary removal from a school
activity, and those two things are categorically different. A
student who is told “you will not be a starter in the next game” is
not removed from the team on disciplinary grounds. If the
student is asked on an application for college or employment
whether she has ever been the subject of disciplinary action, the
student can truthfully answer “no.” B.L. cannot. A student who
is benched for half of a football game can still truthfully list
“member of the team” on a college application. B.L. cannot. There
undoubtedly are certain internal team-management decisions –
who gets to be quarterback versus who plays defensive line – that
are committed to the discretion of the coaching staff and that
would not be “material” enough to be grounds for a constitutional
challenge. Decisions implicating game strategy that are
inherently subjective – for instance, telling a pitcher that he will
be pitching in the bullpen rather than starting games – would not
cross the line of sufficiently “adverse” to be grounds for a
constitutional claim. (Some pitchers like pitching in relief, and
some football players prefer defensive line to quarterback.) But
once a student incurs disciplinary action, a bright line has been
crossed and constitutional protections must adhere.
17

26
your eligibility to play sports can mean the loss not
just of a paid college education, but of universityprovided food, housing, and medical care. “Only” being
removed from taking part in athletics would be, for
tens of thousands of young Americans, a life-altering
punishment.
Even in high school, extracurricular activities
are intrinsic to the educational experience, regarded
as no longer an “extra” activity but a necessity for any
college-aspiring student. See Ilana Kowarski, How
Colleges Weigh Applicants' Extracurricular Activities,
U.S. NEWS & WORLD REP. (Oct. 25, 2018),
https://www.usnews.com/education/bestcolleges/articles/2018-10-25/how-colleges-weighapplicants-extracurricular-activities (stating that
competitive colleges “typically seek students with
significant extracurricular accomplishments in
addition to strong academic credentials”). As of 2010,
the last time the federal government released
statistics, 40 percent of high school seniors reported
playing on an athletic team. NAT’L CTR. FOR EDUC.
STATS., THE CONDITION OF EDUCATION (2012),
https://nces.ed.gov/programs/coe/analysis/2012section3.asp. Researchers have found that taking part
in extracurricular school activities correlates with
steadier attendance, higher grades, greater ambition
to pursue higher education, and avoidance of
unhealthy risk-taking behaviors. Nicholas A.
Palumbo, Protecting Access to Extracurricular
Activities: The Need to Recognize a Fundamental Right
to a Minimally Adequate Education, 2004 B.Y.U.

27
EDUC. & L.J. 393, 393 (2004).18 A recent study in the
journal Preventive Medicine documented that teens
who spend time on extracurricular activities exhibit
fewer signs of depression, and that the benefits are
“significantly more pronounced” for female students.
Eva Oberle et al., Screen time and extracurricular
activities as risk and protective factors for mental
health in adolescence: A population-level study,
PREVENTIVE MEDICINE, Dec. 2020 at 106291. Courts
have long recognized that sports in particular are an
essential part of the offerings that make up a complete
public education. For instance, in Lee v. Macon County
Bd. of Educ., 283 F. Supp. 194, 197 (M.D. Ala. 1968),
the court declined to approve a desegregation plan
that contemplated continued racial separation on
sports teams, stating, “It is without serious question
that athletic programs in the various public high
schools throughout Alabama are an integral part of
the public school system in Alabama.” See also
Hartzell v. Connell, 679 P.2d 35, 42 (Cal. 1994) (en
banc) (“It can no longer be denied that extracurricular
activities constitute an integral component of public
education.”). Because extracurricular participation
has such enormous educational, psychological and
résumé-building value to young people, participation
cannot lightly be taken away merely because a public
employee feels unfairly criticized – especially when

Palumbo states that “students who do not participate [in
extracurricular activities] are 57 percent more likely to drop out
of high school by the time they are seniors, 49 percent more likely
to have used drugs, 37 percent more likely to have become teen
parents, 35 percent more likely to have smoked cigarettes, and
27 percent more likely to have been arrested.” Id. at 394.
18

28
the criticism takes place outside school time or school
functions.
VI.
CONDITIONING ELIGIBILITY FOR
SPORTS
ON
WAIVING
FIRST
AMENDMENT RIGHTS WOULD VIOLATE
THE
“UNCONSTITUTIONAL
CONDITIONS” DOCTRINE
The School District’s contention that students,
in essence, “check their First Amendment rights at the
locker-room door” when they try out for sports misses
a fundamental constitutional point: People cannot be
compelled to surrender their constitutional rights as a
condition of receiving a government benefit, even a
wholly discretionary one. This Court has “said in a
variety of contexts that ‘the government may not deny
a benefit to a person because he exercises a
constitutional right.’” Koontz v. St. Johns River Water
Management Dist., 570 U.S. 595, 604 (2013) (quoting
Regan v. Taxation With Representation of Wash., 461
U.S. 540, 545 (1983)); see also Perry v. Sindermann,
408 U.S. 593 (1972) (holding that a public university
would violate a professor's First Amendment rights if
it refused to renew his contract because he criticized
the college's administration, even if the professor had
no vested entitlement to a renewal).
This
Court
made
the
principle
of
“unconstitutional conditions” abundantly clear in the
First Amendment case of Agency for Int’l Dev. v.
Alliance for Open Society Int’l, Inc., 570 U.S. 205
(2013) (hereinafter, “Open Society”). There, the Court
struck down as an “unconstitutional condition” a
federal policy conditioning receipt of federal AIDS-

29
education grants on an agreement to adopt the federal
“party line” condemning prostitution, which the Court
found unrelated to the purpose of the grant program.
While the federal government had a legitimate
interest in advancing its policy agenda, the Court
found that the government could not use a coerced
waiver in exchange for a discretionary benefit to
indirectly restrict speech that the government could
not restrict directly. See id. at 215. The critical fact in
Open Society was that the government tried to extend
its authority over grantee “affiliates” into conduct
“outside the scope” of the government program, so that
the “affiliate” was not free to express views contrary to
the government’s, even “on its own time and dime.” Id.
at 218 (citing Rust v. Sullivan, 500 U.S. 173, 197
(1991)). The same is equally true here.
The good-conduct policy that the School District
is asking the Court to bless in this case is a posterchild case of an unconstitutionally overbroad
condition, in no way limited to the scope or context of
school athletic programs. As interpreted by the School
District, the policy literally makes it a punishable
offense to use profanity anywhere and anytime. Just
as in Open Society, a policy against swearing is
insufficiently related to the purposes of a high school
athletic program to be sustainable as a mandatory
condition. Surely, the District would acknowledge that
it could not enforce a “no swearing off campus” rule
directly, so it cannot be imposed indirectly in the guise
of a condition. Even more offensive to the First
Amendment, the policy requires that students must,
during every waking hour, behave “in such a way that
the image of the Mahanoy School District would not be
tarnished in any manner.” C.A. App. 486; see Pet. App.

30
6a. Even public employees cannot be compelled to
refrain from saying unfavorable things about the
employer during their off-hours. See, e.g., Liverman v.
City of Petersburg, 844 F. 3d 400, 408 (4th Cir. 2016)
(invalidating city policy forbidding police officers from
using social media to disseminate any information
“that would tend to discredit or reflect unfavorably
upon” the police department, which the court
characterized as a policy of “astonishing breadth”).
And athletes are assuredly not the employees of their
institutions – as the institutions will eagerly agree,
when athletes seek the benefits of employment.
Suppose the Court were to take the invitation
of the District and its amici, and declare that team
sports are a “First Amendment-free zone” where
students can be excluded from participating unless
they sign away their rights. Suppose that a high school
coach requires players to sign a pledge to come to
Sunday services at the coach’s church as a teambuilding activity. The coach may be able to support the
waiver with all sorts of “reasonable” bases. Perhaps
the coach has experienced disharmony when players
with dissonant religious beliefs are thrown together as
teammates, and the coach rationally believes the team
will perform better if everyone practices the same
faith. Could team cohesion justify this incursion into
students’ off-campus lives, just because the coach
attests that religious disagreements have spilled over
into the locker room? The answer is obvious. Nobody
believes that students can be forced to waive their
First Amendment rights to take part in programs
offered by a public school.

31
A ruling in favor of B.L. would still leave schools
with ample authority to enforce reasonable standards
necessary for the functioning of school programs, as
this Court held in Open Society. For example, while it
would not be permissible under Open Society to
enforce a “don’t criticize the government” rule, it
would be permissible to enforce a more tailored
prohibition, such as “do not give away confidential
strategies for the upcoming game.” Moreover, schools
retain authority to enforce reasonable and contentneutral “time, place and manner” restrictions and,
under United States v. O’Brien, 391 U.S. 367 (1968), to
enforce reasonable restrictions on expressive conduct
that incidentally affect speech. So a directive for
players to stay off their smartphones during practice
sessions to maintain concentration would implicate no
First Amendment freedoms. This is all the authority
that schools legitimately need.
The First Amendment specifically exists to
make it harder for the government to operate. As the
Silicon Valley saying goes, this is a feature and not a
bug. Would it be easier for school authorities to get
through the day in peace and quiet if students had no
right to speak? Undoubtedly. For that matter, it would
be easier for school authorities to get through the day
in peace and quiet if parents had no right to speak,
either. But our constitutional system does not
prioritize peace and quiet. As this Court so memorably
said in Tinker, 393 U.S. at 509, governance is meant
to be messy and disputatious. That, said the Court, “is
the basis of our national strength(.)”

32
CONCLUSION
For all of the aforesaid reasons, the decision of
the Third Circuit should be AFFIRMED.
Respectfully submitted,
JUSTIN MARCEAU
Counsel of Record
UNIVERSITY OF DENVER,
STURM COLLEGE OF LAW
2255 E. Evans Avenue
Denver, CO 80210
(617) 256-9073
jmarceau@law.du.edu
Counsel for Amicus Curiae
March 31, 2021

